                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00905-182


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

   Huntington VA Medical Center 

     Huntington, West Virginia 





June 10, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                             CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV



                                           Glossary
                       AUD          alcohol use disorder
                       CBOC         community based outpatient clinic
                       DWHP         designated women’s health provider
                       EHR          electronic health record
                       EOC          environment of care
                       FY           fiscal year
                       MH           mental health
                       MM           medication management
                       NM           not met
                       OIG          Office of Inspector General
                       PACT         Patient Aligned Care Teams
                       PCC          primary care clinic
                       PCP          primary care provider
                       RN           registered nurse
                       VHA          Veterans Health Administration
                       VISN         Veterans Integrated Service Network
                       WH           women’s health




VA OIG Office of Healthcare Inspections
                                     CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV



                                            Table of Contents 

                                                                                                                             Page
Executive Summary ...................................................................................................               i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              21

  F. Report Distribution .............................................................................................            22

  G. Endnotes ...........................................................................................................         23





VA OIG Office of Healthcare Inspections
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of April 2, 2014, at the
Prestonsburg CBOC, Prestonsburg, KY, which is under the oversight of the Huntington
VA Medical Center and Veterans Integrated Service Network 9.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Provider Proficiency review. However, we made
recommendations in the following three review areas.

Environment of Care.

	   Ensure that women veterans can access gender-specific restrooms without entering
     public areas at the Prestonsburg CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently completes diagnostic assessments for patients with a positive
     alcohol screen.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Complete and document medication reconciliation at each episode of care where the
     newly prescribed fluoroquinolone was administered, prescribed, or modified.

	   Staff consistently provide written medication information that includes the
     fluoroquinolone.

	   Staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                       i
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–20, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                                 CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV



                     Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                                CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                      CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Prestonsburg
CBOC. The table below shows the areas reviewed for this topic. The area marked as NM did
not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                 3
                                      CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


NM              Areas Reviewed (continued)                                  Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              Gowned women veterans at the Prestonsburg
       veterans in the examination room.                  CBOC cannot access gender-specific restrooms
                                                          without entering public areas.
       The informational technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an Automated External
       Defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1. We recommended that processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Prestonsburg CBOC.




VA OIG Office of Healthcare Inspections                                                                  4
                                      CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 33 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

 NM                    Areas Reviewed                                       Findings
        Alcohol use screenings are completed during
        new patient encounters, and at least
        annually.
  X     Diagnostic assessments are completed for         Staff did not complete diagnostic assessments
        patients with a positive alcohol screen.         for 20 (61 percent) of 32 patients who had
                                                         positive alcohol use screens.
        Education and counseling about drinking
        levels and adverse consequences of heavy
        drinking are provided for patients with
        positive alcohol screens and drinking levels
        above National Institute on Alcohol Abuse
        and Alcoholism guidelines.
        Documentation reflects the offer of further
        treatment for patients diagnosed with alcohol
        dependence.
        For patients with AUD who decline referral to
        specialty care, CBOC/PCC staff monitored
        them and their alcohol use.
        Counseling, education, and brief treatments
        for AUD are provided within 2 weeks of
        positive screening.
  X     CBOC/PCC RN Care Managers have                   We found that 8 of 21 RN Care Managers did
        received Motivational Interviewing training      not receive Motivational Interviewing training
        within 12 months of appointment to PACT.         within 12 months of appointment to PACT.
  X     CBOC/PCC RN Care Managers have                   We found that 5 of 21 RN Care Managers did
        received VHA National Center for Health          not receive health coaching training within
        Promotion and Disease Prevention-approved        12 months of appointment to PACT.
        health coaching training (most likely TEACH
        for Success) within 12 months of
        appointment to PACT.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendations

2. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.



VA OIG Office of Healthcare Inspections                                                                   5
                                      CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


3. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                 6
                                      CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 36 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                       Areas Reviewed                                       Findings
        Clinicians documented the medication            We did not find documentation that medication
        reconciliation process that included the        reconciliation included the newly prescribed
 X
        fluoroquinolone.                                fluoroquinolone in 7 (19 percent) of 36 patient
                                                        EHRs.
        Written information on the patient’s prescribed We did not find documentation that 6
 X      medications was provided at the end of the      (17 percent) of 36 patients received written
        outpatient encounter.                           information that included the fluoroquinolone.
        Medication counseling/education for the         We did not find documentation of medication
 X      fluoroquinolone was documented in the           counseling that included the fluoroquinolone in
        patients’ EHRs.                                 6 (17 percent) of 36 patients’ EHRs.
        Clinicians documented the evaluation of each
        patient’s level of understanding for the
        education provided.
        The facility complied with local policy.

Recommendations

4. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

5. We recommended that staff consistently provide written medication information as required.

6. We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                   7
                                      CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                             CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV
                                                                                                                                     Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                        Uniques4                                    Encounters4

                                Station                     CBOC
      Location        State                 Locality5                     MH7        PC8       Other9        All       MH7         PC8       Other9       All
                                   #                        Size6
    Charleston       WV        581GB        Urban        Large           1,183       5,894      3,609       6,335      7,075     18,517     12,414     38,006
    Prestonsburg     KY        581GA        Rural        Mid-Size          899       3,112      2,219       3,276      5,996     10,777      9,220     25,993




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique Patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
                                CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                  Specialty Care                                                 Tele-Health
          CBOC                                                  Ancillary Services12
                                     Services11                                                  Services13
    Charleston                   Anti-Coagulation                  Pharmacy                  Tele Primary Care
                                       Clinic                   Diabetic Retinal
                                   Cardiology                      Screening
                                                                MOVE! Program14
                                                                    Nutrition
                                                                 Rehabilitation
    Prestonsburg                      Podiatry                  Diabetic Retinal             Tele Primary Care
                                     Optometry                     Screening
                                                                    Nutrition
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                           CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV
                                                                                                                                   Appendix B


                                                          PACT Compass Metrics





                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.


VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                              CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                        12
                                                                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.


VA OIG Office of Healthcare Inspections                                                                                                                    14
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       May 21, 2014

          From:        Director, VA Mid South Healthcare Network (10N9)

       Subject: 	      CBOC and PCC Reviews of the Huntington VA Medical
                       Center, Huntington, WV

             To: 	     Director, Washington DC Office of Healthcare Inspections
                       (54DC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations of this Office of
          Inspector General CBOC and PCC Review of the Huntington VA
          Medical Center, Huntington, WV, as well as the action plan developed
          by the facility.

       2. If you have any questions or need additional information from the
          Network, please do not hesitate to contact Joe Schoeck, Staff
          Assistant to the Network Director, at 615-695-2205 or me at 615-695-
          2206.



       (original signed by Jim Hayes,
       Deputy Network Director, VISN 9, for:)

       John E. Patrick




VA OIG Office of Healthcare Inspections                                                      15
                               CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV
                                                                                       Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:        May 15, 2014

          From:         Director, Huntington VA Medical Center (581/00)

       Subject:         CBOC and PCC Reviews of the Huntington VA Medical
                        Center, Huntington, WV

             To:        Director, VA Mid South Healthcare Network (10N9)

       1. I concur with the findings and recommendations of the Office of
       Inspector General CBOC and PCC Reviews of the Huntington VA Medical
       Center, Huntington, WV and have attached the facility action plan to
       resolve the identified recommendations. We believe these changes will
       further enhance key systems and processes at our medical center.

       2. If you have any questions or need additional information, please feel
       free to contact Paula McKee, Quality Manager at 304-429-6755 ext 2237.



       (original signed by:)

       J. Brian Nimmo
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                         16
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes are strengthened to ensure
women veterans can access gender-specific restrooms without entering public areas at
the Prestonsburg CBOC.

Concur

Target date for completion: Timeline for completed work:

June 13, 2014 (+30 days): Preliminary design complete and approved by Prestonsburg
staff and VAMC Leadership and submitted to CBOC landlord.

July 28, 2014 (+45 days): Landlord will most likely have to have architectural
engineering assistance or approval for building. Anticipate plans being received back
by this date, with cost estimates.

August 30, 2014 (+30 days): By this time, should be able to secure funding and prepare
build out documentation to send to contracting for approval.

October 12, 2014 (+45 days): Contracting should be able to complete their
documentation and make award to landlord.

December 25, 2014 (+75 days): Construction timeframe including procurement of
materials, contractor start-up, actual construction time and job conclusion.

Facility response: The area for women patient exams will be re-designed to promote
privacy at the Prestonsburg CBOC. New construction is planned to provide female
patients with exam room and bathroom co-located in an area that provides privacy away
from other clinic patients and allows gowned patients to access the bathroom in a
private area away from other patients.

Recommendation 2.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: September 30, 2014

Facility response: The primary care providers will be re-educated on the Audit-C screen
and completion of the diagnostic assessment per the Audit-C evaluation reminder. The



VA OIG Office of Healthcare Inspections                                                      17
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


assessment will include follow-up intervention as appropriate (i.e. recommendations on
appropriate alcohol use, referral to Mental Health/SATP).

Compliance with be monitored by monthly chart reviews for completion of the Audit-C
diagnostic assessment. Ambulatory Care will review 15 charts/month for 3 months.

   1. Numerator is number of medical records with completed Audit-C diagnostic
      assessments as follow-up to a positive Audit-C screen.
   2. Denominator is number of medical records with positive Audit-C screens who
      need diagnostic assessment completed.
Recommendation 3. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: September 30, 2014

Facility response: Orientation will be provided by nurse managers to new RN Care
Managers in completion of training on motivational interviewing and health coaching
within 12 months of assignment to PACT.

Compliance will be monitored per review of TMS training records for all new RN Care
Managers within 6 months of appointment to PACT.

Recommendation 4.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: September 30, 2014

Facility response: The medication reconciliation reminder template will be edited to
include education provided to the patient with understanding verbalized. Also the
template will include instructions specific to fluoroquinolones and possible side effects.
Providers will be educated on importance of completing medication reconciliation with
documentation in the medical record.

Medication Reconciliation:
   Active VA, Non-VA, Remote VA and recently expired medications
      along with allergies reviewed with patient/caregiver.
   Complete list reviewed for discrepancies and none found.
   Patient/caregiver education provided.
   Pt / caregiver voiced understanding.
   Copy of medication list provided to patient / caregiver.



VA OIG Office of Healthcare Inspections                                                      18
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


   	 Do not take any other medication that is not on this list without contacting your
      Primary Care Provider.
   	 If the patient was ordered quinolones special instructions were provided to
      include but not be limited to: Rupture tendons, QT prolongation on EKG, nausea
      diarrhea vomiting.

Compliance will be monitored by checking documentation in CPRS of those whom a
quinolone was ordered. The Clinic Manager will receive a list from pharmacy of those
patients who received quinolones at the clinic. The Clinic Manager will review at least
15 of those documents randomly / month. ACOS Ambulatory Care will report findings to
Medical Staff Council. Ambulatory Care will review 15 charts per month for 3 months.

   1. Numerator w 	 ill be number of medical records for patients who have
      documentation of medication reconciliation completed for each patient who was
      administered, prescribed, or modified a fluoroquinolone dose at each episode of
      care.
   2. Denominator will be the total number of medical records for patients who were
      prescribed a fluoroquinolone during an episode of care.

Recommendation 5.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: September 30, 2014

Facility response: Patient Medication Information sheets automatically print with each
prescription filled by a VA Pharmacy. These sheets are part of the paperwork provided
in the prescription bag. Additionally, Medication Guides are provided for
fluoroquinolones as required by the FDA.
Compliance will be monitored by checking prescription bags that are ready to leave the
pharmacy. The Outpatient Pharmacy supervisor will randomly check 15 bags
containing a fluoroquinolone each month. Results will be reported to the P&T
Committee.

   1. Numerator: 	Number of prescription bags containing a prescription for a
      fluoroquinolone that include fluoroquinolone PMI sheet and FDA medication
      guide.
   2. Denominator: 	 15 prescription bags containing a fluoroquinolone checked at
      random for fluoroquinolone PMI sheet and FDA medication guide.
Recommendation 6. We recommended                         that   staff   provide     medication
counseling/education as required.

Concur

Target date for completion: September 30, 2014


VA OIG Office of Healthcare Inspections                                                      19
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV


Facility response: Providers will be educated on completing medication counseling and
education during every episode of care. The Medication Reconciliation reminder
template will be updated to include documentation of patient counseling and education
about newly prescribed medications, including the patient’s understanding.

Compliance will be monitored monthly for documentation in the patient medical record
and reported by ACOS to Medical Staff Council. Ambulatory Care will review 15 charts
per month for 3 months.

   1. Numerator w	 ill be number of medical records for patients who have
      documentation of medication reconciliation completed during visit.
   2. Denominator will be number of medical records for patients who have primary
      care visits.




VA OIG Office of Healthcare Inspections                                                      20
                            CBOC and PCC Reviews at Huntington VA Medical Center, Huntington, WV
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Myra Conway, RN, MS, Team Leader
Contributors            Gail Bozzelli, RN
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Donna Giroux, RN
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Patrick Smith, M. Stat
                        Randal Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      21
                                          CBOC and PCC Reviews at Huntington VAMC, Huntington, WV
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Mid South Healthcare Network (10N09)
Director, Huntington VA Medical Center (581/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Joe Manchin III, Mitch McConnell, John D. Rockefeller IV, Rand Paul
U.S. House of Representatives: Shelley Moore Capito, Thomas Massie, Nick J. Rahall,
 Harold Rogers


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       22
                                              CBOC and PCC Reviews at Huntington VAMC, Huntington, WV
                                                                                         Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    23
